<html>
<title> - THE 2018 WESTERN WATER SUPPLY OUTLOOK AND WATER INFRASTRUCTURE AND DROUGHT RESILIENCE LEGISLATION</title>
<body><pre>[Senate Hearing 115-511]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-511

  THE 2018 WESTERN WATER SUPPLY OUTLOOK AND WATER INFRASTRUCTURE AND 
                     DROUGHT RESILIENCE LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   TO

EXAMINE THE 2018 WESTERN WATER SUPPLY OUTLOOK AND RECEIVE TESTIMONY ON 
 THE FOLLOWING WATER INFRASTRUCTURE AND DROUGHT RESILIENCE LEGISLATION:

                                S. 2539
                                S. 2560
                                S. 2563

                               __________

                             MARCH 22, 2018

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-772 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Lane Dickson, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
          Camille Touton, Democratic Professional Staff Member
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     2

                               WITNESSES

Petty, Hon. Timothy, Assistant Secretary for Water and Science, 
  U.S. Department of the Interior................................     6
Sandison, Derek I., Director, Washington State Department of 
  Agriculture....................................................    22
O'Toole, Hon. Patrick, President, Family Farm Alliance...........    28
Ziemer, Laura, Senior Counsel and Water Policy Advisor, Trout 
  Unlimited......................................................    41
Sorensen, Kathryn, Director, City of Phoenix (AZ) Water Services 
  Department.....................................................    54
Ortega, Cindy, Senior Vice President and Chief Sustainability 
  Officer, MGM Resorts International.............................    58

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Rivers:
    Letter for the Record........................................   152
American Rivers and National Audobon Society:
    Letter for the Record........................................   154
American Rivers, et al:
    Letter for the Record........................................   155
Cantwell, Hon. Maria:
    Opening Statement............................................     2
    Chart entitled ``U.S. Seasonal Drought Outlook'' dated March 
      15, 2018, by Brad Pugh, NOAA/NWS/NCEP/Climate Prediction 
      Center.....................................................     4
Hoeven, Hon. John:
    Chart entitled ``U.S. Seasonal Drought Outlook'' dated March 
      15, 2018, by Brad Pugh, NOAA/NWS/NCEP/Climate Prediction 
      Center.....................................................    76
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
(The) Nature Conservancy:
    Letter for the Record........................................   157
Ortega, Cindy:
    Opening Statement............................................    58
    Written Testimony............................................    60
O'Toole, Hon. Patrick:
    Opening Statement............................................    28
    Written Testimony............................................    30
Petty, Hon. Timothy:
    Opening Statement............................................     6
    Chart entitled ``Reclamation West-Wide Summary Precipitation 
      and Storage Figures'' dated March 19, 2018.................     7
    Written Testimony............................................     9
    Response to Question for the Record..........................    88
S. 2539, to amend the Energy and Water Development and Related 
  Agencies Appropriations Act, 2015, to reauthorize certain 
  projects to increase Colorado River System water...............    89
S. 2560, the Reclamation Title Transfer Act of 2018..............    90
S. 2563, the Water Supply Infrastructure and Drought Resilience 
  Act of
  2018...........................................................   101
Sandison, Derek I.:
    Opening Statement............................................    22
    Written Testimony............................................    24
Sorensen, Kathryn:
    Opening Statement............................................    54
    Written Testimony............................................    56
South Valley Water Association:
    Statement for the Record.....................................   158
Theodore Roosevelt Conservation Partnership:
    Letter for the Record........................................   163
Ziemer, Laura:
    Opening Statement............................................    41
    Written Testimony............................................    43

 
                 THE 2018 WESTERN WATER SUPPLY OUTLOOK
                      AND WATER INFRASTRUCTURE AND
                     DROUGHT RESILIENCE LEGISLATION

                              ----------                              


                        THURSDAY, MARCH 22, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We had hoped to begin this morning's meeting with a quick 
business meeting, but we clearly do not have a quorum present. 
I know that there are significant hearings underway as we 
speak, in various committees, so we are competing a little bit.
    But for purposes of so many in the West, there could not be 
anything more important than what we are doing here this 
morning and that is to examine the Western Water Outlook for 
2018, as well as three bills related to water supply 
infrastructure and drought resilience.
    For over a decade, the West has suffered through drought 
conditions. And after a brief respite last year, water 
conditions are again poor in much of the region, particularly 
in California and the Colorado River Basin. Changing climate 
conditions and weather patterns appear to be making the matters 
worse.
    The good news is that we have potential solutions to shield 
our communities from harmful drought impacts. And it starts, as 
always, with infrastructure. Every Committee has been talking 
about infrastructure this Congress. It is an important topic 
because there is no question that we need to overhaul and 
modernize America's infrastructure. Across every sector, 
infrastructure is the cornerstone.
    For Western water, drought resilience is simply not 
possible with insufficient and aging water systems that do not 
even function properly. We understand this in my state of 
Alaska where, believe it or not, we actually, every now and 
again, have some water shortages. Even in the Southeast where 
we are a literal rainforest, some areas have faced regional 
droughts. Most often what happens is that water scarcity is 
felt by communities that have plenty of precipitation, whether 
it is Wrangell or Metlakatla, but without the necessary 
infrastructure to capture it and transport it you are just kind 
of stuck.
    In the arid West, the consequences of inadequate water 
supply infrastructure can be even more severe. The failure to 
store as much water as possible in a wet year can have 
devastating, long-term impacts.
    With infrastructure as a foundation, we can also look to 
flexible water management practices to build drought 
resilience. Tools like conjunctive management, data-driven 
reservoir operations, conservation, and other innovative 
techniques can multiply the drought resilience benefits for our 
communities.
    In order to succeed we need to consider alternatives beyond 
dams and reservoirs to provide needed storage, but we must also 
take a critical look at the broken permitting process that can 
kill good storage projects in the very early stages of the 
planning process. We also need to aggressively pursue water 
conservation, without pretending like that alone can solve the 
severe water resource challenges that we face.
    The three bills before us today are important and will move 
us closer to our goals of modern infrastructure and a flexible, 
responsive water management strategy. I want to acknowledge my 
appreciation for the provisions in S. 2563 that allow Alaskans 
to access needed water efficiency and tribal technical 
assistance grants.
    I look forward to hearing from our expert witnesses who 
bring a diverse set of perspectives on water security to the 
table. Whatever your viewpoint, whether it is government, 
irrigation, municipal water, conservation, or business, it is 
encouraging to see widespread agreement about the need to 
increase Western water supplies and the importance of taking an 
expansive approach to water management.
    I thank you all, and now I turn to Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair. Thank you for 
calling a hearing on water in the West and thank you to our 
witnesses joining us today on World Water Day.
    We are joining a global conversation on the importance of 
water for our communities and the science is abundantly clear 
that the climate is changing and it is affecting our water 
supply. Winters are warmer and the snowpack is melting sooner. 
This means less water when we need it most, and we must find 
consensus-based solutions grounded in the 21st century.
    The Bureau of Reclamation projects help to support diverse 
agricultural economies in Eastern and Central Washington, and 
we must grow over 300 different commodities. We must make all 
of these things have the economic opportunity that comes with 
good water planning. Our agricultural economy's production 
topped $10.6 billion in 2016. We are very proud of that.
    A well-managed water system also helps us provide 
affordable hydro for our communities, and Washington is 
fortunate that this year's water outlook and snowpack is normal 
or above normal.
    I look at this map that we have passed out to our 
colleagues as well and the brown areas are the most hard hit, 
impact projections for this year.
    [The information referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    I am relieved to see that the Pacific Northwest does not 
have any of that area this year, but it does not mean that I am 
any less committed to making sure we continue to move ahead on 
good water resource management.
    I think this is all based on Bureau of Reclamation 
precipitation outlooks, and for the Pacific Northwest we are 
expected to be at 104 percent. We are used to wet in some parts 
of our state, but all of these things matter as it relates to 
snowpack and we can see for the rest of the West, the current 
snowpack and water forecast is dismal. The Rockies, which feed 
the Colorado River Basin, and the Sierras in California look 
particularly dry. Oregon's Governor Brown has already declared 
a drought through the Klamath Basin with 40 percent of expected 
snowpack.
    So while we are grateful, again, for this outlook in my 
state, the trends show that a good water year may become the 
exception and not the norm. We remember what a drought looked 
like in 2015 to our communities, and the science is telling us 
that climate change is impacting and will continue to impact. A 
GAO report also found that the number and intensities of 
extreme weather events, like drought, will increase. This will 
cost taxpayers more than $1 trillion by 2039.
    So I believe we must plan and we must prepare. I share the 
same interests as the sponsors of legislation we are 
considering and I am also looking at legislative ideas for 
comprehensive approaches that take us more than just to one 
year, but for many years, of planning in advance.
    We must help our communities become resilient in the 
management of our water resources, especially in light of 
climate change, and there are provisions in this legislation 
that the Committee has previously considered. Some of those we 
have opposed, but we look forward to working with our 
colleagues on water conservation programs like WaterSMART, 
where we find a comprehensive approach.
    We must also support collaborative solutions that do not 
pick winners and losers and, particularly, do not end up in 
court for a decade and a half and then stymie our ability to 
get some basic things done. This is exactly what we did in the 
Yakima Basin, a shared solution that benefited the entire 
ecosystem, and I am pleased Derek Sandison is here today to 
talk about that and other water issues.
    Again, thank you to our witnesses for being here.
    Dr. Petty, congratulations on your confirmation and welcome 
back. We look forward to hearing your testimony.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    We will begin this morning asking each of our witnesses to 
provide us with about five minutes of comments. Your full 
statements will be incorporated as part of the record. We thank 
you for being here.
    We are joined this morning, as Senator Cantwell has noted, 
by the new Assistant Secretary for Water and Science, Dr. Tim 
Petty, who is now with the U.S. Department of the Interior. We 
are pleased that you are there and welcome you this morning.
    Mr. Derek Sandison is the Director of the Washington State 
Department of Agriculture. Thank you for traveling across the 
country.
    Mr. Patrick O'Toole is the President of the Family Farm 
Alliance. Welcome.
    Laura Ziemer is the Senior Counsel and Water Policy Advisor 
with Trout Unlimited. Welcome.
    Ms. Kathryn Sorensen is the Director for the City of 
Phoenix, Arizona, Water Services Department. Thank you for 
being here.
    And Ms. Cindy Ortega is the Senior Vice President and Chief 
Sustainability Officer at MGM Resorts International. We are 
pleased to have you here.
    With that, Dr. Petty, if you would like to kick off the 
panel here this morning. Again, welcome to you all.

STATEMENT OF HON. TIMOTHY PETTY, ASSISTANT SECRETARY FOR WATER 
          AND SCIENCE, U.S. DEPARTMENT OF THE INTERIOR

    Dr. Petty. Thank you, Chairman Murkowski, Ranking Member 
Cantwell, and members of the Committee for the opportunity to 
discuss with you bills under consideration by the Committee 
today and to more generally discuss the water supply for water 
year 2018.
    It is a privilege, actually, to be back before this 
Committee.
    First, let me start with a summary overview regarding each 
bill before the Committee today.
    Starting with Senate bill 2563, it contains numerous 
provisions on which the Department has previously testified. We 
generally support the provisions of the bill and understand the 
important factors in each of the sections. I would direct each 
member to my written testimony which provides a much more 
detailed, section-by-section analysis for you and your staff 
for your review.
    Shifting to the second bill, Senate bill 2539 reauthorizes 
the Pilot System Conservation Program for an additional four 
years. We recognize the importance of interstate cooperation 
with this program and while the Department does not oppose any 
of the reauthorization of the program, it's important to note 
the successful implementation is dependent on the support and 
participation of the funding partners and the Colorado River 
Basin states themselves.
    And finally, regarding the third bill, the Department 
supports Senate bill 2560, the Reclamation Title Transfer Act, 
and appreciates the Committee for working closely with us in 
drafting its provisions.
    If I could quickly turn your attention to the water supply 
for the Fiscal Year, for the year of 2018. I have provided at 
your desk the latest hydrology map reflecting the water storage 
levels, that's highlighted with the Reclamation logo, in the 
major basins in the West, which Senator Cantwell also 
addressed. What the map does not show, however, is how 
Reclamation's water impacts all of America.
    [The information referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Reclamation's water provides one out of every five Western 
farmers with water for 10 million irrigated farmland acres. The 
irrigated acres produce 60 percent of the nation's vegetables 
and 25 percent of the fruits and nuts.
    Harnessing the power of this water, we are the largest 
electrical utility in the 17 Western states, nearly 31 million 
people all over the West depend on Reclamation projects for 
their municipal, industrial and domestic water supply. However, 
much in the West, those water supplies are scarce.
    The 2017 water year was the wettest on record for most of 
Northern California, as well as the Central Valley Project 
Reservoirs. They were completely filled for the first time in 
over five years. But precipitation this year has been far from 
average. As we speak, Northern California is receiving 
precipitation right now which will be helpful to this year's 
forecast; however, we cannot continue to plan for March 
miracles year after year.
    In the California Basins and the mountain ranges, rain is 
only about two-thirds normal and snow levels are even lower 
than that. The results of Shasta Lake is only 79 percent full, 
Trinity Dam is 74 percent full and Folsom Lake is 66 percent 
full. Compared to this from last year, it is a significant 
change already.
    Unfortunately, lack of sufficient water storage prevents us 
from saving more of last year's water to supply this year's 
needs. Additional water storage would allow us to capture more 
water during those wet years, such as the year of 2017.
    Pursuant to the WIIN Act passed in 2017, we have proposed 
projects for inclusion of the FY'2018 Appropriations bill 
which, if enacted, will provide us with much more needed funds 
to proceed on preconstruction work leading to more storage.
    If I could turn our attention to the Colorado River Basin. 
Lake Powell and Mead are roughly half full due to the impact of 
long-term drought. We anticipate that they will be drawn down 
further this year due to poor hydrological conditions. Forecast 
and flow of these 50 percent averages have an incredible 
impact.
    While Reclamation cannot make it rain, we can do more to 
capture and conserve the water supply we do have. We are 
committed to additional storage and water conservation to 
increase water reserves and supply reliability, pay close 
attention to local water conflicts, make investments in 
modernizing existing infrastructure and provide support for 
water development benefits, including Native Americans, to meet 
Reclamation's core mission need.
    We know that, as a commitment shared with my fellow 
witnesses here today, we look forward to not only supporting 
these goals.
    Thank you, and I'll be glad to answer any questions at the 
end.
    Thank you.
    [The prepared statement of Dr. Petty follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Thank you, Assistant Secretary.
    Mr. Sandison, welcome.

  STATEMENT OF DEREK I. SANDISON, DIRECTOR, WASHINGTON STATE 
                   DEPARTMENT OF AGRICULTURE

    Mr. Sandison. Thank you.
    Chairman Murkowski, Ranking Member Cantwell, members of the 
Committee, I appreciate the opportunity to testify today.
    For the record, my name is Derek Sandison. I'm the Director 
of the Washington State Department of Agriculture. I was 
previously Director, Washington State's Office of Columbia 
River, and in that capacity I was responsible for managing 
water supply development projects in the Eastern half of the 
State of Washington.
    My purpose in being here is not to provide testimony 
regarding specifics of the bills that are before you but to 
provide overall context for collaborative water supply 
development projects.
    Unlike Western Washington, where clouds and rain are 
iconic, much of Eastern Washington has almost a desert-like 
climate. The mountain snowpacks and the river system provide 
the water needed to support agriculture, our communities, and 
our aquatic life.
    Washington's agricultural industry is the second largest 
contributor to the state's economy. Our 36,000 farms produce 
about 300 different crops and commodities, and we lead the 
nation in the production of a number of crops including our 
well-known apples. The annual farm gate value of production is 
about $10.6 billion and we export nearly $7 billion worth of 
food and agricultural products. Of the 7.3 million acres of 
cropland in Washington State, 96 percent of those lie in 
Eastern Washington and over 2 million of those acres require 
irrigation.
    In the past few decades, persistent water quality issues 
have adversely affected our agricultural production. Those two 
are declining aquifers and frequent droughts. In 2006, the 
Washington State Legislature passed landmark legislation to 
address water supply issues known as the Columbia River Water 
Management Act. The Act directed the Washington State 
Department of Ecology to ``aggressively pursue'' development of 
new water supplies for both instream and out-of-stream 
purposes.
    Between 2006 and present, the Office of Columbia River, the 
entity created to implement the legislation, developed over 
400,000 acre-feet of additional water supply for all uses. A 
number of factors contributed to the success of the water 
supply development efforts including creating an efficient and 
coordinated environmental review and permitting processes and 
incorporating broad stakeholder involvement.
    Among the problems that the legislature directed the Office 
of Columbia River to address was the issue of declining 
groundwater in a portion of the Columbia Basin, known as the 
Odessa Subarea. The Office of Columbia River, in partnership 
with the Bureau of Reclamation, embarked on a project to 
provide the Columbia Basin project water to replace the 
diminishing groundwater supplies.
    As a result of that project and through the operation of 
Reclamation's Lake Roosevelt and Banks Lake Reservoirs, enough 
water has been developed to replace groundwater at almost 
90,000 acres of farmland and conveyance system improvements 
have been built to move that water to the farms. To date, $176 
million has been spent on the project of which $114 million has 
been provided by state and local irrigators.
    While the Odessa project focused on agricultural water 
supplies, water development in the Yakima Basin is focused on a 
broader set of water and aquatic resource objectives. The 
Yakima basin is a 6,000 square mile basin in South Central 
Washington. Agricultural production in that basin in terms of 
farm gate value is about $2 million a year, $2 billion a year, 
excuse me. Historically, the Yakima River was the second 
largest producer of salmon and steelhead in the entire Columbia 
system.
    Since 1905, Yakima Basin has been operated by or managed by 
the Bureau of Reclamation, including operation of five 
reservoirs which capture about one-third of the runoff on an 
annual basis. The Basin is heavily dependent on Cascade 
snowpack for water supply. The surface water resources are 
over-appropriated and the Basin has experienced numerous 
droughts in the past four decades. A number of salmon runs have 
been extirpated and steelhead and bull trout are listed as 
threatened under the Endangered Species Act.
    Since 2006, the Office of Columbia River and Reclamation 
have collaborated with the Yakima Nation and Basin stakeholders 
to formulate and implement a comprehensive strategy to address 
critical resource needs. This strategy is known as the Yakima 
Integrated Plan.
    The collaboration that we have experienced in the Basin has 
focused on expanding the federal Yakima River Basin Water 
Enhancement Project. Consensus was reached on the Yakima 
Integrated Plan with stakeholders in 2012 and the plan was 
subject to recent legislation that originated in this 
Committee--thank you, Senator Cantwell. The Integrated Plan 
involves reestablishment of fish stocks and construction of 
fish passage and habitat projects. It will expand water 
supplies by enhancing water conservation efforts and creating 
additional aquifer and surface water storage. To date, the 
State of Washington has invested about $200 million on plan 
implementation.
    In closing, I want to emphasize that the success that we in 
Washington State have achieved in water resource development 
would not have been possible without the state being willing to 
invest in projects, without our strong partnership with 
Reclamation, and without active collaboration with Tribes and 
stakeholders.
    That concludes my remarks.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Sandison follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Thank you, Mr. Sandison.
    Mr. O'Toole, welcome.

         STATEMENT OF HON. PATRICK O'TOOLE, PRESIDENT, 
                      FAMILY FARM ALLIANCE

    Mr. O'Toole. Thank you, Madam Chairman, members of the 
Committee. I really can't tell you how much I appreciate being 
able to be here.
    We unfortunately missed our first plane yesterday and took 
the red-eye, so I got in at 6:30 this morning and, hopefully, I 
can be coherent in this discussion.
    I am currently the President of the Board of the Family 
Farm Alliance. We represent irrigated agriculture in the 17 
Western states and we see pretty much all of it. You know, we 
are disturbed that right now in the Central Valley they're 
looking at a zero allocation.
    We're moving into a crisis in the Klamath that will be like 
the early 2000s. And you know, how are we going to address that 
and how are we going to solve it? And it's infrastructure.
    I tell the story--I represented in the legislature, I was 
there a little before Senator Barrasso--that I represented the 
county that was the headwaters of both the Platte and the 
Colorado River. And in the Platte River, the infrastructure was 
built during the Roosevelt Administration, not Franklin. We did 
it more than 100 years ago.
    That infrastructure was during a part of America where we 
thought we were going to build ourselves into the nation that 
we are and they used the comment, too thick to plow and too 
thin to drink, or the opposite of too thin. Anyway, the idea is 
that it turned into this great, incredible Eastern Wyoming and 
Nebraska agriculture and our cities are dependent on that 
infrastructure.
    On the Colorado River, our family lives right off the 
Continental Divide. I tell people we raise cattle, sheep, 
horses, dogs and children, and we are a community of ranchers 
that have been there, our families, since 1881. And we've seen 
it all, drought, wet, good, bad, war, peace and what we've 
seen, most importantly, is that our water resource is crucial 
to us.
    This bill that is being discussed today about the fast 
track, to some extent comes from our experience trying to build 
the reservoir in the '90s that took 14 years to permit. And 
that--I was, at that time, part of the legislature--took a lot 
of time and it was just a circle. It went around and around and 
you never really got any resolution. We downsized the reservoir 
to get the permit. It turned out to be half as big as it needed 
to be the day it was built. We're now looking at another 
permitting process and, hopefully, this process that we're 
talking about today can facilitate that.
    But we have to understand, I have had some experience in 
food policy. I work on a group called AGree that has looked 
at--we need to double the food supply in the next 35 years. And 
yet, we're taking land out of production, you know, the numbers 
are 60 acres a minute are going out of agricultural production. 
Young people are not surviving or replacing us. The fastest 
growing category of agriculture is people like me, 70 and 
above. What does that tell you?
    We don't have a system to facilitate the largest transfer 
of land in the history of America. And so, you know, how do we 
do it? Part of it is with the water infrastructure, making sure 
there's enough water.
    I've served on two commissions--one was a presidential 
commission, one was the Johnson Foundation--on what we're going 
to do about water resources. Both, the easy answer is always 
take water away from agriculture. It's the discussion. I've 
been able to help blunt some of those discussions, but the 
reality is we need more water and more food.
    And you may have seen, last week there was an article in 
the New York Times, 50 percent of our fruits are now coming 
from overseas. To a great extent that's because our members in 
California are leaving, en masse, because of the regulatory 
system.
    And one story that really moved me was that I was in the 
San Luis Reservoir Bureau of Rec Office and saw a map of 
California of the 50-year plan--this was like two years ago--
the 50-year plan for the State of California. It didn't do one 
infrastructure that was planned in that plan. Yet, they went 
from 6 million people to 39 million people. It's because we 
lost our commitment to infrastructure.
    I can tell you very clearly, I think we have been 
dismantling the great agricultural bounty of this country. This 
bill is one of those things that's going to change that because 
what I hear people want to do is storage. And over the years, 
they say, well we want to do storage, but it's too hard to 
permit.
    I think the effort here today, Senator Barrasso and all of 
you, have the opportunity to turn that around.
    Thank you so much for the opportunity to talk to you.
    [The prepared statement of Mr. O'Toole follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Thank you, Mr. O'Toole. We welcome you. I am 
sorry for your air traffic delays, but it was a bit of a mess 
here yesterday. We are glad you are here.
    Ms. Ziemer.

  STATEMENT OF LAURA ZIEMER, SENIOR COUNSEL AND WATER POLICY 
                    ADVISOR, TROUT UNLIMITED

    Ms. Ziemer. Good morning, Chairman Murkowski, Ranking 
Member Cantwell, and members of the Committee. Thank you for 
the invitation to testify today on behalf of Trout Unlimited 
(TU).
    The future of the West is linked to its water, and we 
commend the Committee leadership for working on Western drought 
issues. There is also no better partner than my colleague on 
the panel, Patrick O'Toole, and the Family Farm Alliance for 
creating solutions that benefit both farms and fish.
    For the past 20 years in my water work with Trout 
Unlimited, I've listened carefully to the needs of water users 
and listened to the challenges they face, and that is in order 
to find solutions that work for both interests and do not pit 
one against the other.
    I live and work in Montana and know firsthand the 
devastation of prolonged drought. The key to getting through 
these difficult or--the key to this difficult work and getting 
through times of drought is to share the burden and the 
benefits across all sectors: agriculture, communities and river 
health.
    In the suite of bills before this Committee, I would like 
to highlight four issues.
    First, Senate bill 2563 contains the NEPA streamlining that 
Mr. O'Toole talked about to expedite projects on federal lands. 
TU is not opposed to simplifying the permit process, but we 
also believe that any streamlining should focus on promoting 
well-designed projects meeting multiple needs, where storage is 
one part of a portfolio of diverse strategies to increase water 
security.
    Mr. Sandison has already described the Yakima Basin effort, 
thank you, and the Yakima plan is a flagship example of this 
portfolio approach. Also, California's Yuba River Basin has a 
relevant lesson for today. Water storage standing alone, even 
its million acre-feet, did not solve the Basin's water 
conflicts--the Yuba Accord did. Under the Accord, storage water 
is supplemented with aquifer recharge, sustainable groundwater 
pumping, downstream water transfers and extensive drought 
planning. The Accord successfully managed water through 
California's most severe drought, meeting both agricultural and 
imperiled fishery needs.
    To promote sustainable solutions like these, we propose 
frontloading the NEPA process with a multi-stakeholder working 
group. And that working group would be charged with developing 
a portfolio of projects and approaches to address unmet water 
needs, including environmental flows. And then such an approach 
of this frontloading the NEPA streamlining process should 
result in producing more solutions like the Yakima and Yuba 
examples.
    My second point is that Senate bill 2539, which extends the 
Colorado River Systems Conservation Pilot Program, is also a 
successful example of creating multiple benefits. Our long-
standing work in Wyoming meant that we could work in 
partnership with ranchers to increase participation in each of 
the three years to date. The program keeps participating 
ranchers whole, delivers water downstream for system 
reliability and improves trout habitat. We support the 
extension of the program as a short-term drought response 
measure while we also work on long-term strategies to build a 
resilient and basin-wide approach.
    My third point is that the Water Rights Protection Act in 
Senate bill 2563 jeopardizes the ability of federal agencies to 
condition permit. A key part of drought resiliency in the 
basin-wide approach is protecting those headwater flows and the 
federal authority to condition water withdrawals on these 
federal lands is a necessary tool. We look forward to working 
with the Committee to clarify the lines of authority on water 
rights between states and federal agencies but without 
undermining the long-held federal authority to condition 
permits.
    Fourth and finally, in my own work on the Sun River we 
found a way to benefit irrigation supply while restoring flows 
to the chronically dewatered Sun River with WaterSMART funding. 
Two thousand feet of lined canal, 2,300 feet of PVC pipe, put 
more water in the Sun River. When coupled with reservoir 
reoperations based on better use of snowpack data, it more than 
doubled the wild trout population in the Sun River.
    Senate bill 2563 expands the pool of eligible applicants to 
WaterSMART. We think that including conservation organizations 
that have a long-standing track record of working well with 
irrigation districts and irrigators will help advance multi-
benefit projects like the Sun River, but it's an oversubscribed 
program and the funding cap should also be increased.
    I'll leave you with one concluding thought. The early 
pioneers found a spring or dug a well and then built their 
homestead, not the other way around. Although the scale is 
different today, the work is the same. If we're good stewards 
of the water, the water will take care of us.
    Thank you, and I look forward to answering any questions 
you may have.
    [The prepared statement of Ms. Ziemer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Thank you.
    Welcome to you, Ms. Sorensen.

   STATEMENT OF KATHRYN SORENSEN, DIRECTOR, CITY OF PHOENIX 
              (ARIZONA) WATER SERVICES DEPARTMENT

    Ms. Sorensen. Good morning and Happy World Water Day.
    Phoenix Water Services is the largest potable water utility 
in Arizona and one of the nation's 10 largest potable water 
utilities.
    I would like to thank the Committee for recognizing the 
importance of drought resilience and water scarcity in the 
West, and I would also like to thank Senator Flake for his 
strong leadership in water issues which are so important to 
Arizona. These issues are of great concern to the City of 
Phoenix because, of course, it is the delivery of safe, clean, 
reliable water supplies that lays the foundation of public 
health, economic opportunity and quality of life in our desert 
city.
    The 2018 Water Supply Outlook for the Colorado River Basin 
is terrible. Snowpack stands at a paltry 72 percent of normal 
and on the Salt and Verde River System, which supplies 60 
percent of the water used in Phoenix, it stands at only 22 
percent. After nearly two decades of drought we do not know if 
we are in year 18 of an 18-year drought or year 18 of a 100-
year mega-drought. Perhaps the word drought no longer applies. 
Perhaps diminished snowpack and record-breaking heat is the new 
normal. In this new normal, we must plan methodically for 
worst-case scenarios, because the consequences of failing to 
deliver safe, clean water are unthinkable.
    A recent Reuters article noted that three years ago the 
chance of a three-year drought in Cape Town, South Africa was 
less than one percent. Cape Town is now learning, in the most 
tragic of ways, the consequences of failing to deliver safe, 
clean water to a major city. It's unacceptable and those 
outcomes, those worst-case outcomes, must be proactively 
avoided. The kicker is that planning for water supply 
resiliency and the infrastructure necessary to achieve it is a 
long-term, continual effort. By the time Cape Town knew that it 
was in serious trouble, it was too late to build the necessary 
infrastructure to prevent a threat to public health.
    When it comes to water supply availability, Phoenix is held 
to a higher standard than any other city in the country. And 
that's as it should be. We are, after all, in the middle of the 
Sonoran Desert and our standard must be absolute certainty. 
Public health mandates it. Quality of life depends on it. 
Economic investment is contingent on it.
    The key to meeting this standard is infrastructure--storage 
projects, reservoirs, canals, surface water treatment plants, 
wells, pump stations, valves and pipelines. New investments in 
infrastructure are needed throughout the West to increase 
certainty. In Phoenix's case this means building additional 
well capacity to pump water we have stored underground in our 
aquifers to protect ourselves against drought on the Colorado 
River and in large transmission mains that move water to 
portions of our service territory that are vulnerable during 
shortages.
    We must also continue to be vigilant of our culture of 
conservation, continue to reclaim our wastewater and reuse it 
and continue to recharge our aquifers. Our ability to meet the 
challenge of water scarcity has always relied on innovative 
local initiatives but also on a strong partnership with the 
Federal Government, particularly the important Bureau of 
Reclamation projects that provide reliable water supplies to 
entire regions of the West and across municipal, agricultural 
and industrial sectors of the economy. That continuing 
partnership is critical for the coming years.
    In Arizona and across the West, these water storage 
projects increase water security and flexibility. 
Collaborative, innovative management of these projects has a 
multiplier effect on water security and drought resilience. 
Some of the measures that this Committee is considering in this 
and other bills, such as continuing the WaterSMART program and 
ensuring proper asset management and flexible management of 
Reclamation infrastructure, are examples of how the Federal 
Government can increase water resiliency in the arid West.
    The West has a long history of managing water scarcity, but 
we are facing an unprecedented test. The water supply outlook 
is terrible, but I am absolutely confident that with 
appropriate investment in infrastructure, collaborative and 
innovative partnerships, increased flexibility and a vigilant 
focus on a culture of conservation, we will continue to provide 
safe, clean, reliable water deliveries to our desert city in 
worst-case scenarios and for generations to come.
    Thank you.
    [The prepared statement of Ms. Sorensen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Thank you, Ms. Sorensen.
    Ms. Ortega, welcome.

  STATEMENT OF CINDY ORTEGA, SENIOR VICE PRESIDENT AND CHIEF 
       SUSTAINABILITY OFFICER, MGM RESORTS INTERNATIONAL

    Ms. Ortega. Thank you.
    Chairman Murkowski, Ranking Member Cantwell and members of 
the Committee, thank you for the opportunity to testify on the 
critical subject of the 2018 Western Water Supply Outlook.
    My name is Cindy Ortega, and I'm the Senior Vice President 
and Chief Sustainability Officer for MGM Resorts International.
    I would ask that my full statement be made part of the 
record. Thank you.
    MGM Resorts is a global entertainment company headquartered 
in the middle of the Mojave Desert, Las Vegas, Nevada. MGM owns 
and operates 28 destination properties across the United States 
and internationally. Our company is recognized in Las Vegas, 
across the globe and right here in the DC metropolitan area for 
offering best-in-class hotels and resorts, casinos, state-of-
the-art meetings and conferences, incredible live entertainment 
spaces and an extensive array of restaurant, nightlife and 
retail offerings.
    This year we celebrate the 90th anniversary of the law that 
gave rise to the Hoover Dam and subsequently Lake Mead, the 
largest reservoir in our country. These actions provided some 
of the critical ingredients necessary for Las Vegas to grow, 
focused national attention on Nevada, and was our first major 
tourist resort.
    Many things have changed in Las Vegas over the last 90 
years, but one thing that has remained the same, has always 
remained the same, is that Lake Mead provides nearly 90 percent 
of Las Vegas water and our drinking water. Lake Mead benefits 
Arizona and California, since they store water in it as well, 
but it's Las Vegas' and Southern Nevada's water supply.
    Nevada has benefited from a long history of bipartisan 
leadership and cooperation amongst its Congressional delegation 
to protect, manage and conserve on water issues throughout the 
Silver State, and we are grateful that Senator Heller and the 
Ranking Member Senator Cortez Masto are continuing in this 
tradition. Thank you.
    Given our strong reliance on this reservoir and our shared 
stake in its future, we have taken note of the impacts that the 
prolonged drought has had on Lake Mead. The 15 years of Western 
drought has dropped Lake Mead to some of its lowest levels 
since the Great Depression.
    Nevada is proud that despite the fact that Southern Nevada 
is only entitled to two percent of the Colorado River's water, 
we use that water over and over again. Las Vegas returns nearly 
every gallon of water that is used indoors to Lake Mead so it 
can be used again.
    Simply put, the growth of Las Vegas in combination with 
this persistent drought has forced Las Vegas to innovate and 
make major investments in water infrastructure and to value 
water in our business decisions like never before, and MGM is 
at the forefront of this innovation.
    MGM Resorts has recognized the growing need for action. As 
a company, we are always exploring new solutions to help 
conserve our natural resources. Our commitment to being a 
global leader in sustainability and stewardship of the 
environment is embodied from the top of the company through the 
bottom. All told, the company's environmentally responsible 
practices have saved greater than 1.2 billion gallons of water.
    The iconic Bellagio Lake uses no water from Lake Mead. 
Rather, it is supplied by and replenished from underground 
wells that are on the site. This results in the conservation of 
domestic, potable water equivalent to the annual usage of 5,000 
residential pools.
    When MGM built City Center from the ground up, we built in 
a range of state-of-the-art water and energy efficiency 
measures into the entire campus. The results have been 
exceptional and have enabled the entire development to save 
more than 50 million gallons of water every year. I welcome any 
of the members of the Committee to come to City Center, and 
we'll give you a back of the house tour if you'd like.
    Even with all the strong programs and business leadership 
to conserve and reuse water, investments in longer-term 
solutions as well as well water infrastructure are needed. MGM 
and our competitors on the Las Vegas Strip are part of a larger 
ecosystem of parties who have a real and substantive interest 
in the health of the Colorado River and Lake Mead.
    In order to prepare our communities and businesses for the 
future, states must collaborate in preparing and implementing 
long-term solutions for adequate water sources. We need to 
collaborate, we need collaboration that crosses state lines and 
local lines and welcomes business innovation but, most 
importantly, enlists everyone in the battle to preserve our 
water resources.
    Today's hearing is a positive step toward that effort and 
hopefully the future attention on these issues will keep us 
focused in a way that will produce positive results.
    Thank you again for the opportunity to testify and I look 
forward to your questions.
    [The prepared statement of Ms. Ortega follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Thank you very much, Ms. Ortega, and thank 
each of you for being here this morning and for your very 
important testimony.
    Mr. O'Toole, I want to start with you, but others are 
certainly welcome to respond as well.
    When we talk about the significance and the importance of 
just the infrastructure of storage, clearly important to the 
management aspect across the country, particularly in the West. 
And yet, the reality that we deal with is this opposition that 
we see to surface storage, regardless of the size and the 
specifics. You said, I think your words were, that we lost the 
commitment to infrastructure in California and, I think, in 
other parts of the country as well.
    We all recognize that infrastructure has got to be key 
here. We all recognize the need and yet we have, I think, some 
views, some perspectives that perhaps are old or outdated, 
certainly a negative view of reservoir projects.
    In my state, we do not have the big reservoirs, the Hoover 
Dam. They are much, much smaller scale and we have been able to 
work relatively cooperatively with some communities that have a 
very keen focus on the environmental aspects. Sitka is a 
beautiful example of a community that came together and said, 
for purposes of our little island community, we have to have 
this capacity, and they worked together.
    But we are dealing with a difficult mindset. How do we 
change it? Are you seeing things improve for the better or for 
the worse? And if they are not changing for the better, what do 
we do because there is a recognition that we have to address 
this?
    Mr. O'Toole. Thank you, Madam Chairman.
    It's something I do know a lot about. And I mentioned I was 
on a federal water commission in the mid-'90s, and it was 
Senator Hatfield's bill to look 20 years into the future. Well, 
we are now 20 years into the future. I'll give you one example.
    Our valley is half Colorado and half Wyoming, the river 
crosses the state line 12 times. And so, on one level we've 
learned how to work together in the two states. But Governor 
Hickenlooper of Colorado put together roundtables all over the 
State of Colorado to try to deal with their long-term 
discussions.
    In the Yampa/White, they did a--the consultants did a study 
and every single watershed is going to need storage. And this 
was the consultant's report. When I did the commission in the 
'90s, the word was we'll never build another storage reservoir. 
That just isn't true and what, you know, my lifestyle is to 
form partnerships and coalitions. I work with Ms. Ziemer, 
Audubon, Environmental Defense Fund, many other groups, and we 
all realize that working together on a watershed where you're 
working together to do multiple things. Our ranch is an 
important bird area with Audubon. We've done a project on our 
river to integrate our fishery and our irrigation, but without 
storage we're never going to be able to fulfill what we know is 
going to be the need.
    We had two summer rain events in December and January at 
7,000 feet in Wyoming. That water needs to be stored for the 
long-term. In my own view, I'm looking at two weeks early and 
two weeks late in terms of our capability for irrigation of 
water and without storage, we're not going to get there.
    So, you ask, what could we do? This bill is one thing, the 
infrastructure dollar bill. In Wyoming, we had some far-
reaching thought in the mid-'80s; put oil, gas, coal, uranium 
into a water fund along with permanent mineral trust fund, 
wildlife fund and an education fund so that we can begin to 
fund, to be able to take dollars, federal dollars, to help 
match what's called the private-public partnership. I'm sure 
you're aware of that discussion. That's the future.
    So you've got to stimulate. You've got to let people know 
that permitting is not going to be an impediment. It's going to 
be facilitated so that when a watershed gets together with many 
partners, you're going to be able to do a project because the 
Federal Government says it's a priority.
    The Chairman. Well, and I appreciate all that you have said 
in terms of the collaboration, the awareness, the education, 
the funding, but I think we just have a problem in this country 
with this, call it the Nimby attitude--I want to have the 
benefits of this, but I don't want to know that you are doing 
this. I don't want to know that you are building this, whether 
it is a reservoir, the storage capacity or whether it is 
pipelines that we use to move an energy resource so that we can 
get natural gas to the Northeast. It seems to me that we have 
some attitudes that we need to change.
    I appreciate your efforts--and it sounds like everybody on 
the panel here does--in really trying to build these 
collaboratives that will help us change it, but we can talk 
about doing it legislatively. We also need to recognize that we 
have to be on the ground educating Americans regardless of 
where you are, whether you are in a drought-prone area or not 
so much, that these are shared benefits and that, ultimately, 
somebody is the host to this whether--in Louisiana they are 
host to offshore development. They bear the burden of that 
development offshore. How you share it, I think, it is no 
different than water because water is absolutely key to 
everything that we do.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Ms. Ziemer, it's Ziemer, right? You talked about some of 
the solutions in watershed management. Could you expound on 
what you think some of those key tools are from the management, 
water management, strategy?
    Ms. Ziemer. Yes. Yes, thank you.
    My vision for what that looks like is based on my 20 years 
of experience of living and working in the Rocky Mountain West 
and working on water issues. Those tools of water management I 
describe, in my experience in those 20 years in the Rocky 
Mountain West, the best tools come from the people living and 
working in a particular basin because every river basin is 
different and every river basin is unique. And so the best 
solution is the solution coming from the people who live and 
work and are tied to that water resource in that basin.
    That said, there's a couple of commonalities across the 
individual needs of each basin.
    The best solutions, I have found, come from both a multi-
stakeholder process, as Mr. O'Toole has described, where 
projects and approaches are looking across all three sectors 
benefiting agriculture, making sure our working landscapes stay 
intact, benefiting thriving communities and, of course, trying 
to both sustain and restore abundant fish and wildlife. And 
what that requires is a portfolio of projects and a diverse 
group of strategies in addition to storage, and the storage may 
be new or re-operated or expanded, but the best storage, the 
fastest storage, the cheapest storage is storage embedded in 
this diverse portfolio of strategies. So a combination of built 
infrastructure and natural infrastructure can work together to 
secure water supply.
    Senator Cantwell. Isn't it in some of these projects that 
are collaborative, basically you are doing that, but you are 
taking the low-hanging fruit right away while you are looking 
at the larger questions as you go? Right? As opposed to----
    Ms. Ziemer. Yes, Senator.
    Senator Cantwell. As opposed to hiring lawyers and arguing 
for another 18 to 20 years?
    Ms. Ziemer. Right. Of course, the Yakima is a flagship 
example of that where the new storage and revised storage is 
embedded in the plan and then the plan is implemented where 
some of that low-hanging fruit that is cheaper and can be 
implemented first is done to help prepare the way for the 
effectiveness of new storage so that expensive investment in 
new storage really pays dividends in terms of meeting diverse 
water needs.
    Senator Cantwell. Where are you on aquifer recharging?
    Ms. Ziemer. An aquifer recharge is a key component because 
the cheapest way to store water is in the ground. And try 
unlimited supports to aquifer recharge provisions in the 
proposed bill so long as we do that in a way that also doesn't 
harm another cheap-acting natural piece of infrastructure, 
which is peak flows because peak flows work really cheaply but 
they're incredibly important for not only moving water across 
the landscape in providing aquifer recharge across a diverse 
area, but also maintaining river health.
    In the Yuba Basin, which I talked about, before the Accord 
the South Yuba Basin was depleted and there was no sustainable 
groundwater pumping. The Accord helped manage aquifer recharge, 
to recharge that depleted South Yuba Basin, and now sustainable 
levels of groundwater pumping are one of the key pieces to make 
that million acre-feet of storage go a long ways in times of 
extreme drought. So aquifer recharge is a key piece of a long-
term, basin-wide strategy, especially to weather the extreme 
drought events.
    Senator Cantwell. Well, what I like about this, from just a 
flat world perspective, is I like to empower people to help 
themselves. And the notion, you know, I get it, you know, the 
'60s, the strategy for water was a little different--but that 
was a long time ago.
    And now, we really want to empower communities. I look at 
Dr. Petty and think, well, it is costing us about $1 trillion 
over the next 20 years in the expense of climate impact, 
instead of everybody coming back here and knocking on his door 
and waiting 7 to 10 years for an answer. What can we empower 
these communities with, the tools right now, to help themselves 
while we are answering the larger questions?
    I, personally, like that because it is more water, cubic 
water flow for our regions. So whether that is for fish or for 
farming or for whatever the other activities are, to me, that 
is just very prudent.
    So I just hope that we'll continue that--a strategy that 
pushes the best resources out to the communities as quick as 
possible if they are, in fact, being collaborative. Now, if 
they are arguing and somebody is trying to legislate a winner 
over--that is never going to get us there.
    I hope that we can turn this on its ear and see that our 
water management strategy really does have to be about 
empowering communities, as you just said, to do the right 
things and giving them the tools to do that as quickly as 
possible.
    Thank you.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Madam Chair. Thank you to all 
the witnesses for being here.
    I think I have said this before in this Committee, that in 
the Capitol Rotunda in Colorado on a mural there, the first 
words of the poem in the mural go something like this: ``Here 
is a land where history is written in water.'' And so, 
certainly, very important to the State of Colorado.
    Secretary Petty, you have talked a little bit about the 
challenges the basin faces. We have talked about my program 
there, my legislation on the Upper Colorado Endangered Fish 
Recovery Program Extension Act. I just wanted to get, briefly 
though, your further thoughts on the hydrology conditions in 
the Colorado River Basin overall because it is devastating at 
this point.
    Dr. Petty. It is, Senator.
    I appreciate that question. I know you've had lengthy 
interactions even with the Secretary, with Secretary Zinke, on 
a lot of the concerns that you have. But specifically, the best 
part of what Bureau of Reclamation, and other parts of 
Interior, really works with you is how we can better 
understand, not only those communities and those relationships, 
but even the geology as well as that precipitation. What to do 
with it, the storage component, those areas are very specific. 
So I really do want to continue to interact with you and with 
your staff on those specific areas.
    Senator Gardner. Thanks.
    Given this bleak hydrology, and you did outline some of it 
in your opening comments, can you talk a little bit about the 
ripple effects of Lake Mead's water supply falling under the 
level at which it is able to produce electricity?
    Dr. Petty. Yes.
    And so, because we've had so many ongoing years of 
significant lower drought impacts, we're really using those two 
reservoirs as a balancing to try to facilitate water resources.
    We've noticed incredible conservation components which 
other people here on the panel have really discussed on how we 
can manage the water that we actually have in there and then 
balance it between all these seven state impacts.
    As those go forth, that is going to be a combination of how 
then do we go about working on a region-by-region, community-
by-community level?
    Senator Gardner. Thanks.
    You mentioned in your testimony additional water storage 
would allow us to catch and store more water in wetter years, 
like we had in 2017, to allow us to better deal with drier 
years, like 2018 is shaping up to be.
    Dr. Petty. Yes.
    Senator Gardner. I couldn't agree with you more. We have to 
be doing that.
    In Colorado alone, if you look at the project that is 
named, known as NISP in Colorado, the Northern Integrated 
Supply Project, this would have provided opportunities to store 
some of that 5.5 million acre-feet of water since 2009. That is 
even more than that today.
    You also mentioned the absurd permitting timeline that 
these projects are subjected to, up to 20 years. In Colorado, 
it has taken over 10 years just to get an expanded water 
storage project in place, just to add capacity to an existing 
reservoir that had Democrat, Republican, bipartisan support, 
multiple times.
    I would like to talk with you further about the 
difficulties the agencies run into when it comes to water 
permitting storage projects and how we can do a better job of 
that. Is it your opinion that authorities provided in the 
permitting coordination title of the legislation we have today 
would help speed up the timelines of these water storage 
projects?
    Dr. Petty. It would, Senator. And I do look forward to 
working with you on really implementing what's in some of this 
legislation so that we can speed up those requests. It's 
opportunity that we are missing.
    Senator Gardner. Thank you.
    I just want to point out too, I think it was Ms. Ziemer--is 
that how you say the last name, Ziemer?--that you talked about 
conservation.
    Look, I think conservation is critically important. I do 
think that we have to have, sort of, this three-legged stool 
approach to water. We have to have water storage, we need new 
water storage and we have to have expanded capacity of existing 
water storage facilities. Without it, we are not going to have 
enough water to supply a growing state like Colorado. And we 
certainly won't be able to prevent the buy up and dry up of our 
most abundant and profitable and best farmlands in places like 
Colorado or Wyoming.
    We also need critical conservation. We should do that. 
Northern Colorado Water Conservancy District, which is working 
on the NISP program, they have had a 22 percent reduction in 
water use throughout the NISP participants through the 
conservation efforts that they have undertaken.
    We also have to have partnerships between the state and the 
federal and local governments to build critical partnerships to 
help address the permitting processes, the funding issues and 
how we can do this.
    But I would like to drill into a little bit deeper about 
something you said. I want to thank you, first of all, for the 
work Trout Unlimited has done with us on Good Samaritan 
legislation. I hope that we can actually get a Good Samaritan 
bill through and start cleaning up some of these abandoned mine 
sites and get it across the finish line.
    Regarding the Water Rights Protection Act that is under 
consideration today, does Trout Unlimited, to you, does it 
distinguish between forced transfer of title and ownership of 
water rights to the Federal Government through permitting fiat 
and the conditioning of permits with bypass flow conditions?
    Ms. Ziemer. Yes, Senator Gardner, absolutely.
    The former, the forced transfer of water rights, is clearly 
out of bounds and contrary to state governance of Western water 
rights.
    But there's a long-held federal authority to look at water 
projects or would work at permits on federal lands, bypass flow 
authority and supporting agencies to exercise that authority in 
a way that is constructive and helps meet all needs, Fish and 
Wildlife, agriculture in thriving communities on water 
projects. That's a tool that needs to stay in the tool box.
    Senator Gardner. What about between bypass flow conditions 
imposed on new permits for new projects versus bypass 
conditions imposed on permit renewals or limits for existing 
infrastructure where those conditions never existed before?
    Ms. Ziemer. Right.
    And that has, that latter context has been more 
controversial, certainly. Trout Unlimited has been part of 
finding solutions in those contexts to support the Fish and 
Wildlife concerns, sometimes by both changing the bypass flow 
conditions or meeting those flow conditions through this kind 
of strategy approach of diverse projects and diverse strategies 
coming to bear.
    But even on renewal projects the concern that the bypass 
flow authority is addressing is important to be addressed and, 
I think, having a diverse way to meet that concern is very 
important.
    Senator Gardner. Yes.
    Again, I just want to make a statement. My belief that 
federal deference to state water law should remain and that the 
requirement the federal claims the use of that water would be 
asserted, quantified, adjudicated via the state McCarran 
Amendment principles.
    Ms. Ziemer. Right.
    Senator Gardner. Thank you.
    The Chairman. Thank you, Senator Gardner.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Dr. Petty, S. 2563, before us today, expands the 
eligibility of WaterSMART grants for planning, design and 
construction of water conservation and efficiency projects to 
entities in Alaska. I can certainly understand Alaska's 
interest in being eligible for these grants as we in Hawaii 
have been interested in expanding eligibility to entities in 
our state as well. I, along with my colleagues in both the 
House and Senate, have been working to do so over the course of 
the past four years.
    Do you see value in expanding eligibility for WaterSMART 
grants to both Alaska and Hawaii? And if the program were to 
expand to our states, what additional resources or 
authorization would the Department need to ensure that the 
program could function at its current capacity?
    Because I am not interested in making it harder for the 
states that are already, and the territories already eligible, 
taking from them. We need to expand the pot, more of the pot. 
So let me hear your thoughts.
    Dr. Petty. Yes, Senator, it's a great question.
    First of all, with regards to the language that has been 
put forth, we look forward to, obviously, working and expanding 
what WaterSMART has to offer.
    What we have learned from already, WaterSMART is the 
effectiveness. And even if we can contribute even a small 
portion, it gives incredible amount of increase for those 
communities to be creative, but to also have resources that 
even the Department or even the Bureau of Reclamation can 
provide to that local community.
    So, right off the bat, I think the best part of WaterSMART 
is really being able to demonstrate that it is very effective.
    Senator Hirono. I think this would be really terrific for a 
state like Hawaii then, because it is seven inhabited islands, 
each with their own water systems and within their locality.
    So a bit of support could go a very long way toward the 
kind of creative solutions and approaches you are talking 
about. So you would be supportive?
    Dr. Petty. Yes. Yes, Senator.
    Senator Hirono. Okay.
    Another question for you, Dr. Petty.
    There are so many competing interests for our country's 
fresh water supply whether it is residential homes, 
agriculture, fish, businesses, you name it. They all rely on 
water and this is certainly not going to change in the future.
    And one of our country's bedrock environmental laws, NEPA, 
requires federal agencies to undergo a process when performing 
large projects that include public input and evaluation of 
alternative actions. This helps to ensure that the public voice 
is heard and that the environmental impacts of the project are 
minimized.
    How important is it for the Department to consider public 
input and project alternatives when dealing with such a 
sensitive and important resource as water?
    Dr. Petty. Senator, another really important question.
    The Department, overall, puts a high priority on the NEPA 
process, the EIS, making sure that those communities are heard 
about the pros and cons that are being put forth by those 
communities. That's why the Secretary has put a high priority 
to really interact and engage the state and those local 
communities as one of our high priorities.
    On another component though, the complexity of how long it 
takes to get through those is what we're really working to 
address now, is how can we effectively streamline it? There are 
so many bureaus that are connected and/or even agencies that 
are connected and each one has to have a say. And what happens 
is it just gets drawn out at an extensive rate? So, our goal--
--
    Senator Hirono. Yes, I am all for streamlining the process 
so that things and decision-making, that does not have to 
happen consecutively can happen on a parallel course.
    Dr. Petty. Yeah, thank you.
    Senator Hirono. So my question really has to do with making 
sure that the public voice is in there----
    Dr. Petty. Yes.
    Senator Hirono. ----before a project is even off the ground 
and that kind of relationship building is important.
    I have a question, again for you, Dr. Petty.
    During your confirmation hearing I asked you about climate 
change and you acknowledged that it is happening, which I 
appreciate. Climate change is threatening Hawaii's future 
freshwater security through sea level rise because we have the 
water table, increasing temperatures, increased strata, et 
cetera, and being in the middle of the Pacific when our 
freshwater supply runs out we are literally left high and dry.
    Within the Department of the Interior, there are programs 
that provide funding for partnerships with universities and 
other non-federal groups to coordinate and conduct research on 
water-related programs or problems all across the nation, 
including Hawaii. Do you see value in these partnerships and 
leveraging resources to help states plan for an uncertain water 
future?
    Dr. Petty. Yes, absolutely, Senator.
    Those are where we're back again to communities on the 
ground and that those relationships are really important so 
that those cooperative understandings and agreements can be 
worked through with what is needed in those local communities. 
And so many times those universities and those local, non-
profit groups really work well together for that community.
    Senator Hirono. Are these partnerships in existence in 
Hawaii and could you provide me with a list of those which you 
consider are really working effectively?
    Dr. Petty. Yeah, I certainly will, Senator.
    If you don't mind I'd like to just make sure that we get 
all those answers back to you?
    Senator Hirono. Yes.
    Dr. Petty. So we'll just get that back into the record.
    Senator Hirono. Yes, thank you.
    Thank you very much, Madam Chair.
    Dr. Petty. Thank you, Senator.
    The Chairman. Thank you, Senator Hirono.
    Senator Hoeven.
    Senator Hoeven. Thank you, Chairman.
    Dr. Petty, as you are aware, the Reclamation Title Transfer 
Act of 2018 would authorize the Secretary of the Interior to 
convey all right, title and interest in any facility that is 
determined to be eligible.
    As you mentioned in your testimony, currently the Bureau of 
Reclamation requires the title to Reclamation projects, land 
and facilities remain with the U.S. until title transfer is 
specifically authorized by Congress.
    The question is, how would this legislation address or 
change the current process which can be very time-consuming and 
costly? I am asking this because I have a number of specific 
conveyances I am trying to make with the help of your agency 
and others right now. One is the land around Jamestown 
Reservoir to homeowners there, and the other is land around 
Patterson Lake to the residents there. Both above the high-
water mark, very nice homes, very nice setting and it is not 
only private homes, but you also have public land and other 
recreation facilities in the area where a conveyance is 
something that would be very nice. Jamestown probably has 15-
20,000 people and Dickinson maybe 30,000. These are small 
communities, very nice communities, but these are tremendous 
facilities that can be utilized very well if we make 
conveyances. We are having to do a lot of work to get it done, 
passed. In fact, it takes an Act of Congress. You have heard 
that term?
    Dr. Petty. Yeah.
    Senator Hoeven. I am sure there are other examples around 
the country where we can do some real good for some of our 
wonderful citizens. I want your ideas on how we can improve 
this whole process.
    Dr. Petty. Sure, Senator.
    You know, two, really, actually multiple great questions 
within that.
    So what I'd like to start out with, obviously, the title 
transfer component. Bureau of Reclamation has been working very 
closely with this Committee as well as multiple members, even 
when I was a staff member with Senator Risch, we had multiple 
irrigation communities who were very interested in the title 
transfer component.
    Senator Hoeven. You were staff for Risch?
    Dr. Petty. Yes, I was.
    Senator Hoeven. So you really like this bill, don't you?
    Dr. Petty. Yes, I do.
    [Laughter.]
    It has been through multiple reiterations though. We worked 
very closely with both sides of the aisle on making sure how we 
can really utilize this title transfer. The communities, the 
irrigation communities, as well as the communities in those 
small, medium and large areas of the states have seen the 
importance, and the Bureau of Reclamation cannot do all things.
    As a consequence, there's a lot of things that are small 
that we can't get time to do. What the title transfer allows us 
to do is to be, literally, more effective in allowing those 
communities to take on those responsibilities when all 
community areas are in agreement that it would be the most 
effective use of both the federal community as well as the 
state and local community. I wanted to address that right off 
the bat.
    The second part that I wanted to address with you is 
regards to your land process. And I know, actually, another 
individual, Scott Cameron, was up here testifying as well on 
those. The position that we have is we really want to be able 
to work with you. We're a neutral position. We think if it's 
collectively within the communities to move that forward, we 
look forward to just being able to work with you to try to get 
that as successful as possible for those communities and your 
constituents.
    Senator Hoeven. Well, it sounds to me like you are doing a 
very good job in your position, Secretary.
    Dr. Petty. Well, thank you.
    Senator Hoeven. I am pleased to hear that.
    But seriously, teasing a little there, but I really do 
appreciate the response on this. I think that is what people 
are looking for when we work with the agencies, and I want to 
thank you for that.
    Dr. Petty. That's our goal, Senator.
    Senator Hoeven. And it is a win for the Federal Government 
because of the incredible amount of co-investment that comes 
from the state and the local level. Once they know this is 
going to be a permanent situation, they are willing to come in 
and make major league investments that, and again, with the 
public recreational areas there, it is a real win for all 
concerned. So thank you.
    Dr. Petty. Looking forward to working with you.
    Senator Hoeven. Okay, whose map is this?
    Dr. Petty. Yeah, Senator Cantwell wanted to bring that up 
with drought. The one that I actually provided was the one with 
just, kind of, giving an overview of water in the West.
    Senator Hoeven. Who wants to tell me, how likely is it that 
this area up here in Montana and the Dakotas, it looks like it 
is coming out--I just want somebody to comment on, kind of, 
what you see. Is that continuing to trend the right direction?
    [The information referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    We have been getting moisture lately. We are hoping to come 
out, most of our states come out, but the Western part we are 
concerned about. I just wondered if any of you had any thoughts 
in that regard. I would like to hear them.
    Ms. Ziemer. Senator Hoeven, I'm from Montana and the 
Eastern part of Montana, as you see on the map of the Dakotas, 
that's where it's been drier.
    Senator Hoeven. Right.
    Ms. Ziemer. And the forecast is for that to continue and so 
that means that we're really going to be dependent on the 
spring precipitation cycle and temperatures in the summer as to 
whether that drought persists. Right now, it's looking like 
those, that spring precipitation is going to hold up well. So 
it's really key what happens in April and May.
    Senator Hoeven. Yes, it is right now.
    Looks like you all are doing pretty well. You have really 
moved a long way, haven't you?
    Ms. Ziemer. The skiing has been great this winter, sir.
    Senator Hoeven. Yes, and it is actually a little bit more 
now in South Dakota. But right now, it seems like the trend, 
knock on wood, is moving the right way and your sense is we are 
still making some progress?
    Ms. Ziemer. Yes.
    Senator Hoeven. Okay, good.
    Thanks so much, I appreciate it.
    The Chairman. Thank you, Senator Hoeven.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Welcome to all of the panel members.
    Let me start with Ms. Ortega. I so appreciate that you are 
here.
    From an industry perspective, can you describe what water 
conservation, water vitality, in Nevada means for your 
business?
    Ms. Ortega. Thank you, Senator.
    You know, MGM, as you know and is your home, as you know, 
Senator, of the Mojave Desert, and so, our very way of being 
depends on the ecosystem and the resources around Las Vegas and 
around our community.
    Water is, sort of, the center of everything. It's really 
interesting, as you know, in Nevada that we have such a strong 
water culture there. I'm always surprised, but we actually, 
sort of, because we don't have seasons we, sort of, keep our 
calendar by the watering cycle that all of us adhere to and are 
so used to for years and decades in Las Vegas, right? Everybody 
knows how you water externally.
    From a business perspective, it's an interesting view 
because, as I said in my testimony, the water that is used by 
the guests and customers in Nevada really is mostly used in the 
resorts there. We have a system in Nevada that we're very proud 
of that actually reuses that water over and over. Whether you 
are at a restaurant or taking a shower at a Las Vegas resort, 
one way or the other, that water ends up in a drain and ends up 
back in Lake Mead, probably in about a day and a half. We're 
very proud of that, but nonetheless, we still think that it's 
very important for a company like MGM, who is the largest 
taxpayer and largest employer in the State of Nevada, to take 
positions and act proactively in our policy arenas.
    Senator Cortez Masto. Right.
    Can you just put it in perspective? How many rooms does 
your property have in Southern Nevada?
    Ms. Ortega. Well, around 50,000 and we also have 57,000 
employees in Southern Nevada.
    Senator Cortez Masto. Right.
    One final thing because I am going to run out of time here, 
but is it also true that MGM has attracted more business 
because of the investments you have made in water efficiency?
    Ms. Ortega. Certainly.
    And certainly, with a wider range of sustainability 
initiatives, as our largest customers which are other 
businesses make decisions on whether to have conferences and 
meetings in our venues, our environmental footprint is one of 
those criteria they use for that.
    Senator Cortez Masto. Thank you.
    Ms. Ortega. Thank you.
    Senator Cortez Masto. Ms. Ziemer, Trout Unlimited has 
worked in drought-stricken watersheds and has worked with local 
ranchers and irrigators to produce significant water savings in 
the past. And one of the programs I know that Trout Unlimited 
supports is the WaterSMART program.
    Can you discuss what improvements you see that could be 
made to WaterSMART to allow groups like yours to help implement 
water efficiency and conservation projects and collaboration 
with farmers and ranchers and how would that work with Senate 
bill 2563?
    Mr. Ziemer. Yes, thank you.
    That's such a good question because a lot of the discussion 
today has been that the best projects are those projects that 
are cost-
effective by meeting multiple benefits at the same time.
    Trout Unlimited has long been a champion of the WaterSMART 
program because it helps investments in irrigation 
infrastructure and often those investments have come from 
collaboration across conservation groups like Trout Unlimited 
and irrigation districts. And that allows projects that both 
increase the reliability of irrigation supply while putting 
water back into de-watered streams and also fixing a lot of 
fish passage issues.
    Many irrigation districts are so strapped with the business 
of managing their own district and water supply that they don't 
have the capacity to invest in project design and, quite 
frankly, and no offense to the federal funding process, but the 
intricacies of applying for federal funding and tracking those 
funds. If conservation organizations like Trout Unlimited that 
have a long track record of working collaboratively with 
irrigators and irrigation districts can absorb some of that 
because we've been through the process before and we have some 
of that expertise, we feel like we can bring that expertise to 
bear and make those federal dollars go further.
    Senator Cortez Masto. Right.
    I hear that--that seems to be consistent with your comments 
today: That idea of involving stakeholders in this process----
    Ms. Ziemer. Right.
    Senator Cortez Masto. ----at all levels because it can 
streamline the NEPA process, make it, hopefully, more 
efficient, but at the same time it is that collaboration, at 
the state, local and federal levels, where we are looking to 
best practices and everybody involved may have some background 
or experience that can add to the best practice.
    That is what I am hearing today from you, is that right?
    Ms. Ziemer. Absolutely.
    And Senator Cortez Masto, you raise a really good point 
that on our WaterSMART projects that also have to go through 
NEPA process and often are really big, complex infrastructure 
projects. Those have all really sailed through the NEPA 
process, partly because of that advanced stakeholder input and 
that the projects are already considering a diverse array of 
impacts and are designed to benefit fish and wildlife and 
agriculture at the same time. And then, low and behold, they 
sail through NEPA.
    Senator Cortez Masto. Great. Thank you.
    I know my time is up. Thank you very much, all of you, for 
coming today.
    The Chairman. Thank you, Senator.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman. Thank you for 
holding the hearing today on the Western water supply outlook 
for the current water year.
    As I have said before, water is the lifeblood of everything 
that we do in Wyoming, from cattle ranching to energy 
exploration, recreation, whether it is boating on Big Horn 
Lake, kayaking on Flaming Gorge Reservoir, water is the 
cornerstone of our economy and livelihood.
    It has been mentioned today that the water outlook across 
the West and along the Colorado River is not looking good. In 
Wyoming we do have a different story. We have above-average 
snowpack this winter and are anticipating healthy runoff this 
spring so it allows us to focus on water management and water 
storage.
    That is why I am so pleased to have with us today Pat 
O'Toole with the Family Farm Alliance. He is a sheep and cattle 
rancher with his family in Southern Wyoming along the Little 
Snake River, and I have known him for many years as a member of 
the Wyoming legislature. I know this year he was invited to 
address both the House and the Senate in the Wyoming 
legislature. He has been a great voice for the agriculture 
community in Wyoming, a leader in advancing water storage 
policy. So I am delighted you are here. You may have noticed I 
had to go out for a few minutes, Pat. I was on a radio station, 
KUGR, with Al Harris out of Green River and I was quoting you 
about how you said, ``What do we do? We raise cattle, sheep, 
horses, dogs, and children.'' Which is what happens in Wyoming. 
That is what we do.
    I just would like to just ask a question, if I could. 
First, given your experience building water storage projects, 
what is preventing the development of new storage that would 
help in high runoff years?
    Mr. O'Toole. Yes, sir.
    You know, in anticipation of this testimony I met with the 
Cheyenne Board of Public Utilities two weeks ago and talked 
about their needs. Certainly, agriculture is looking for 
increased storage, virtually on every drainage, but so are the 
cities, and their understanding, I think you mentioned earlier, 
that on the big runoff years we have to catch more. So we're 
looking at Rob Roy and Houston Park and expansions of those 
reservoirs because what we're seeing is this volatility of 
flows, whether it be in California or in Wyoming.
    I think the great thing that Governor Mead did by saying, 
``Ten in Ten,'' I mean, it's the message that Senator Murkowski 
mentioned, you know, we're messaging that it's a good thing. 
And Mr. Petty will appreciate that Idaho water users called 
yesterday and they wanted to have somebody from Governor Mead's 
office come and talk in Idaho because we speak about it openly 
and we're doing it. The ten reservoirs that are being built are 
a good example.
    I mean, as I said earlier, in Colorado I'm on a watershed 
group that every single watershed thinks that they have to have 
storage in the future. So, you know, this to me, this hearing 
is just critically important because it's finally saying what 
we have known for years and years is that if we're not looking 
forward to managing our watersheds and as Ms. Ziemer and others 
said, it's people coming together. You don't get a project 
permitted without having a broad cross section of players 
whether it be the trout guys or the bird guys or the fish. I 
mean it's all together. Then we come up with a project that 
should be easily permittable. I think the one we're looking at 
right now, Senator, could be an EA rather than EIS which would 
be even a more facilitated process.
    Senator Barrasso. Yes, and you do have a really, strong 
reputation as being a leader in conservation and environmental 
programs. People have known you for that. I know, certainly, in 
the Wyoming legislature days as well as nationally, including 
habitat preservation efforts.
    Can you speak a little bit about the assurance that the 
current environmental standards will be upheld if the permit 
process is streamlined?
    Mr. O'Toole. If I might just expand a little bit.
    You know, when we talk about who is against it, why are we 
not moving forward, not just with storage, but with other 
issues--I see a real distinction between the conservation 
groups that are represented here that I work with all the time 
and the litigators who have a different agenda.
    I think what we're talking about, hopefully in this 
Administration, is that those partnerships that we're forming, 
for example, I talk about sometimes, the myth of efficiency. We 
don't want to always be doing sprinklers. We want to do flood 
irrigation.
    There'll be an event the Little Snake River with Senator 
Hicks, in two weeks, talking about how the balance between 
conservation practices, flood irrigation, recharge of rivers is 
all integrated with--and our particular ranch we have a third 
sprinklers and two-thirds flood because we're trying to do 
multiple things with the water. I think that's the future, is 
understanding, you know, just how diverse, if you apply the 
water both in timing and in volume, you can do multiple things 
with the resource.
    Senator Barrasso. Thanks. If I was going to go on the radio 
again, I would quote you just as you just said, ``The 
conservation groups who work together all the time and the 
litigators who have a very different agenda.''
    Thanks so much.
    Thanks, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Daines.
    Senator Daines. Thank you, Madam Chairman, and thank you 
all for being here today.
    I want to particularly thank Ms. Ziemer for making the 
trip. It is always great to have a fellow Montanan in the room 
as well as somebody who is fighting on behalf of something I 
care a lot about which are trout. So, welcome.
    As Chair of the Senate Western Caucus I know water 
infrastructure is a critical aspect in need of attention across 
the West. I am really glad we are addressing these important 
measures here today.
    As you all know, last year Montana experienced an 
unprecedented drought in many areas resulting in a devastating 
wildfire season. We had severe drought conditions up in the 
Northeast part of our state, some of the worst conditions seen 
in a century. So severe the Rocky Boy Reservation nearly ran 
out of water completely.
    Clean, reliable drinking water is one of the most basic 
needs of life, and yet much of rural Montana lacks access to 
suitable drinking water. To that end, I have introduced 
legislation, the Clean Water for Rural Communities Act, which 
would authorize two rural water projects in Montana. 
Authorizing these projects, the Musselshell-Judith Rural Water 
System and the Dry-Redwater Regional Water Authority System, is 
a key step to providing clean and safe drinking water to nearly 
36,000 Montanans and North Dakotans whose current water does 
not meet basic, safe drinking water standards.
    Dr. Petty, as you mentioned in your testimony, the Bureau 
of Reclamation was created to assure that Western communities 
have an adequate water supply. There are many authorized 
projects awaiting completion and many more that need 
authorization from Congress.
    Dr. Petty, can you commit to working with us to ensure the 
needs of our rural communities, such as those in Montana, are 
not overlooked when it comes to providing a clean and reliable 
water supply?
    Dr. Petty. Yes, Senator, I can.
    I've been here in all of your different hearings and I very 
much still remember the posters that you had demonstrated of 
that water that was distributing red, much more than clear and 
the need for that.
    I look forward to just being able to work with you and the 
importance, obviously, of how we can work together in your 
communities to actually build and store future water so that 
those impacts are not happening in those communities.
    Senator Daines. Yes, those water samples were literally 
taken out of taps.
    Dr. Petty. Yeah.
    Senator Daines. It was shocking. You would think I was here 
representing some Third World country.
    Dr. Petty. Yeah. I remember.
    Senator Daines. It was just taken out of the taps of rural 
Montanans.
    Dr. Petty. I remember that hearing very well.
    Senator Daines. It is your responsibility to take seriously 
and the responsibility of Congress to spend these hard-working 
taxpayer dollars effectively and efficiently, and so often 
these stop/start approaches to these rural water projects ends 
up costing a whole lot more money. This is not a good way to 
spend the taxpayer dollars. It is not very efficient.
    They have been waiting completion now for many, many years 
and they are also tied to economic opportunity and growth as 
well. So we will continue this push and thanks for your help on 
that.
    These communities who are seeking authorization from 
Congress have been working on feasibility studies for more than 
12 years. I am kind of tired of studies. I am ready for some 
action to get them done. The Bureau has spent millions of 
dollars combined in these efforts and, I think, it is really 
time to move forward. I realize we have to move forward here in 
Congress, and we need your help as well.
    Dr. Petty, will you work with me to improve and streamline 
the rural water program to ensure that authorized projects are 
completed faster and other projects seeking authorization in 
which the Bureau and local communities have invested 
significant time, significant money and energy, can come to 
fruition?
    Dr. Petty. Senator, I do look forward to working with you. 
That is so much of what Reclamation was originally designed and 
built for was those communities out West which was trying to 
bring, basically, life into dry areas. That's the whole aspect 
behind our mission statement, so we really do look forward to 
working with you in these new parts.
    Senator Daines. Yes, and I am grateful too that our new 
Secretary, Secretary Zinke--when I was giving input to the 
Trump Administration on the Secretary of the Interior, I said 
it needs to be from the West. And I said, West does not mean 
West Virginia. I am talking West. I am glad we have a Montanan 
in that, leading that great organization.
    Thank you.
    The Chairman. Thank you, Senator.
    Senator Flake, you are up. Good timing.
    Senator Flake. Thank you. I apologize for having to miss a 
part of this and I apologize if I am plowing old ground here, 
but I appreciate all of you being here, especially Ms. 
Sorensen. Thank you for coming, and I really appreciate what 
you have done.
    As we have heard today, it is plain to see that, you know, 
in Arizona and much of the West we can string together one or 
two wet years, but it is always going to be followed by a dry 
year or a dry decade. So we have to do a lot of planning.
    The Water Supply Infrastructure and Drought Resilience Act 
that I introduced with Senators McCain, Barrasso and Gardner, I 
think, will help states prepare for years, just like that we 
have had in the last couple of years and mitigate impacts of 
the next inevitable drought that we have had. The bill builds 
on legislation that we passed in Committee last Congress and 
includes input from the Water and Power Subcommittee that we 
received from numerous hearings and roundtables and briefings 
in the past couple of years.
    What I heard throughout the process boils down to the need 
to develop new water supply infrastructure and to fix existing 
assets, remove federal barriers to better management, and 
provide more legal certainty about the availability and use of 
water resources. If we do these things then our local water 
managers will be empowered to plan and invest and innovate and 
meet the water supply needs of communities and the economy.
    S. 2563 includes a number of priorities that will improve 
water security across the West and I know there are a lot of 
other ideas, good ideas, out there, and as we go through this 
legislative process, I look forward to hearing more from 
stakeholders involved.
    Ms. Sorensen, I appreciate your insights today and all the 
work you have done for Arizona. Like many cities in Arizona, 
Phoenix has taken a very proactive and expansive approach to 
water supply management to ensure a reliable water supply. Can 
you talk a little bit more about the importance of having a 
diverse water supply and the importance of keeping all options 
on the table when planning to meet long-term water needs?
    Ms. Sorensen. Yes, absolutely. Thank you, Senator Flake.
    So Arizona can't afford to have all of its eggs in one 
basket. It is incredibly important for us to have a very 
diverse supply of water resources, not just physically diverse, 
but also legally diverse because of the complicated set of 
water rights that are before us.
    We have worked for decades to acquire supplies that are 
physically diverse and legally diverse and we have to then 
show, to meet our 100-year assured water supply requirements, 
that those supplies are also financially available. It's a very 
high standard. And basically what we do is, we acquire diverse 
supplies. We acquire supplies decades before they are really 
needed to provide a buffer against drought and shortage on the 
Colorado River and a buffer that we can eventually grow into. 
We reclaim all of our wastewater and beneficially reuse it. We 
continually focus on our culture of conservation. That's an 
important part of meeting our demands as well.
    As you know, we have been very careful to settle our water 
right disputes with Native American communities, agricultural 
interests, other cities, the state, the Federal Government, so 
that we can provide the certainty for real investment in our 
infrastructure.
    Importantly in Arizona as well, we directly tie the ability 
to grow to an adequate water supply and that was done back in 
the 1980s. And it was an effort to show certainty for economic 
investment. To this day, no other state has matched the 
progressiveness of those laws. It's really important that we 
are able to show the security of our supplies for public health 
and for opportunities for investment as well. So yeah, a 
diverse water supply is the keystone of all of those.
    Senator Flake. Well thanks for mentioning that.
    Arizona has had a longstanding practice of looking forward 
in terms of water, and people see the desert there and think 
how in the world can it grow, how can metropolitan areas like 
Phoenix, in particular, grow and have an adequate water supply? 
Well, it is because of good planning from a lot of good people 
years ago.
    You mentioned the Groundwater Code that was groundbreaking 
at that time in the 1980s. My uncle, Stan Turley, was Speaker 
of the House and then Senate President during that time and we 
have had just a whole generation of people who took this 
seriously, those who planned the Central Arizona project and 
big infrastructure projects that allowed us to go forward.
    Ms. Ortega discussed how water security in desert cities is 
often a major factor in decisions made by businesses. Ms. 
Sorensen, can you talk about the nexus between water supply and 
efforts to attract businesses to Arizona?
    Ms. Sorensen. Absolutely.
    So what we commonly find is the first question that we are 
asked when major investors come to Central Arizona is, do you 
have enough water? And, of course, the answer to that question 
must always be a resounding ``yes.''
    So we work very closely with the state and with local 
partners to make sure that our supplies are resilient, that our 
infrastructure is available for that economic investment as 
well. Like I said in my testimony, Phoenix is just held to a 
higher standard than other cities across the nation, and we 
must always meet that standard or else we will not enjoy 
security for investment. There's a very close nexus between 
water supply resiliency and economic investment in Arizona.
    Senator Flake. Alright, thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Flake, and thank you for 
your leadership on so many of these issues as they relate to 
water.
    There are those of us that have water and those that wish 
they had more water, but at the end of the day, even if you 
have it, you have to have that infrastructure. You have to have 
that storage. So it takes me back to the question that I had 
initially.
    Dr. Petty, let me ask you about the Bureau of Reclamation's 
Tribal Technical Assistance Program that helps the tribal 
organizations better develop, manage and protect their tribal 
water and resources.
    Last year, the Ahtna Intertribal Resource Commission in the 
interior part of our state applied for assistance and was 
denied because they said that Alaska was not one of the 17 
Western states. I look to your map that you have provided us in 
terms of Reclamation here and the first thing that Senator 
Cantwell asked me, she is like, what happened to Alaska there?
    Well, you know, we are, we have been one of the Western 
states since 1959 when we came in. So the question to you is 
whether you would anticipate any challenges to including 
eligible Alaskan entities in the Bureau's Tribal Technical 
Assistance Program? It seems to me that we are part of this 
Western region. We might not be on your map, but we are part of 
that West. What is your response?
    Dr. Petty. You know, Senator, that's the first thing that I 
definitely will make sure is we get Alaska as part of this as 
well.
    The Chairman. Thank you. It is going to make your whole map 
out of whack.
    Dr. Petty. Different, but that's okay.
    The Chairman. It is going to have to be an eight and a half 
by--I don't know.
    [Laughter.]
    Dr. Petty. We will figure that out.
    Senator Risch. It will also make your life a lot easier.
    [Laughter.]
    Dr. Petty. It certainly will.
    So first of all, right off with your question. Even from 
the language that has been put forth, and it was part of this 
hearing, we really do look forward to incorporating, even the 
WaterSMART, as part of Alaska and its admission into those.
    We actually, and I've had a briefing since I've been back 
up on the Hill, or back in Interior, of how we go about 
actually helping people who have submitted through WaterSMART 
or through these programs as well as just being affirmed that 
any tribal communities that also submit, that we give them 
support and full consideration on how those processes go 
through and we help them, technically, in making sure that they 
put forth the best technical capability so that we can give 
them resources that allows them and their community to move 
forward with water.
    The Chairman. Okay.
    Well, I know that we would like to work with you on that 
and again, hopefully, the good folks in the Ahtna region will 
see some of that.
    Let me ask about title transfers and probably to you, Dr. 
Petty, and to you, Mr. O'Toole. Facilitating the title transfer 
of the Bureau of Reclamation facilities that are relatively 
uncomplicated and where the capital has or will be repaid, it 
has been discussed as a potential benefit to both the Federal 
Government and the non-federal operating entity.
    Can you just share with us, Dr. Petty from the federal 
perspective and Mr. O'Toole from the non-federal perspective, 
what is the benefit and what is driving the interest in this 
transfer of the respective titles to these facilities?
    Dr. Petty. Well, if I could start first, just to respond 
specifically now since we also have the lead author of the bill 
in the title transfer, it will be a good combination of just 
referencing how important the Federal Government reviews and 
sees this title transfer capability. It allows those, even 
specifically those irrigation districts, who have been working 
hard for years and decades and even some, longer, on the 
importance of eventually moving that into their responsibility. 
They've been overseeing with the O&M, the operations and 
maintenance, but allowing them to actually carry that title. 
One, from a federal perspective it reduces not only our 
liability as a Federal Government but also the ability to 
resource other communities that need to get going and getting 
up and started.
    I mean, even interacting with Senator Daines on some of his 
earlier interests, a lot of these irrigation districts have 
been doing this for such an amazing long time, working with the 
different communities and non-profit organizations to become 
better at what they're doing. That allows them to know what to 
fix and how to fix it more effectively on the ground and with 
us not having to be that overbearing and resources that are 
dependent upon those.
    So I think those are some of the huge aspects that, for the 
Federal Government, gets us more out of the way for those who 
are doing extremely well, they know what they're doing. And 
then allowing us to take those really precious resources and go 
and work in other communities that need even support and help 
from the Federal Government.
    The Chairman. And on the non-federal side, Mr. O'Toole?
    Mr. O'Toole. Madam Chairman, interestingly our community 
was going to have two storage reservoirs, one in Colorado and 
one in Wyoming. They're still authorized in the Bureau of Rec 
but were never built because of the vetoes that President 
Carter, back in the '70s--
    We have worked so hard to get some storage. We've done 
23,000 with the State of Wyoming, but that 100,000 was, sort 
of, the goal and that was what was analyzed was needed.
    I called one of our members--and the Family Farm Alliance 
represents both Bureau and non-Bureau people, our value is non-
Bureau or non-federal--he said it was the best thing that ever 
happened to him, Tom Knutson in Kearney, Nebraska.
    And what my vision and I think you guys, you all are 
talking about this federal participation in infrastructure 
where there could be dollars to match state dollars. That's the 
new vision where we're not going to have quite the same storage 
building that we did in the '60s-'70s, that period of time, but 
the infusion of the states that are ready to build storage for 
themselves of dollars to help match with the state dollars is 
going to be critical.
    I think it's the perfect example of how the Federal 
Government got something started in many places, then it became 
local and the local people are driving the process.
    The Chairman. Very good. Good, thank you.
    Senator Cortez Masto, do you have follow-up?
    Seeing none, we appreciate the contributions from each of 
you, appreciate the time that you have given us this morning 
and the effort to come across the country at a time when most 
people were saying, we don't want to travel to the East Coast, 
but thank you for being here.
    We look forward as we are developing these water solutions 
to ensure that we not only have what we need for our families, 
our farmers, our fishermen, but for all aspects of water and 
water use.
    We thank you for your leadership and appreciate your time.
    With that, the Committee is adjourned.
    [Whereupon, at 11:47 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
</pre></body></html>
